              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Oversight Funds Provided to Local
Governments in the State of Nevada




DOE/IG-0600                                 May 2003
                              Department of Energy
                                   Washington, DC 20585

                                    May 23, 2003




MEMORANDUM FOR T

FROM:                 &S
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "Oversight Funds Provided to
                      Local Governments in the State of Nevada"

BACKGROUND

Under the terms of the Nuclear Waste Policy Act, the State of Nevada and affected local
governments are entitled to exercise oversight of the Department of Energy's Yucca
Mountain Project. Oversight funds provided by the Department may be used to review
Yucca Mountain activities with the potential to affect local economies, public health and
safety, and the environment. In Fiscal Years 2001 and 2002, ten local governments received
a total of $12 million for oversight expenditures. The funds could also be used to request
impact assistance; provide information to Nevada residents and the Secretary regarding
activities of the Yucca Mountain Project; and, engage in any monitoring, testing, or
evaluation of activities with respect to site characterization programs. Congress specifically
prohibited the use of the funds to influence legislative matters, pay litigation expenses, or
support multi-State efforts and other coalition building activities.

A House of Representatives Committee Report accompanying the Energy and Water
Development Appropriations Act of Fiscal Year 2002 required the Department to audit the
use of oversight funds. Accordingly, we conducted this audit to determine whether the local
governments used the oversight funds according to the terms of the Nuclear Waste Policy
Act and annual appropriations language. Because Nevada's Clark, Lincoln, and Nye
Counties received $8.5 million ($7.2 million had been expended at the time of the audlt) of
the $12 million in oversight funds, we selected these counties for our review.

RESULTS OF AUDIT

The three counties used oversight funds for activities that were prohibited by the Nuclear
Waste Policy Act. Specifically, counties spent oversight funds to:

       Hire lobbyists and attorneys to perform work that was not related to oversight
       activities;

       Sponsor events and rallies held in protest of the Yucca Mountain Project; and,



                                 @    Printed with soy ink on recycled paper
                                                  2


      0    Purchase supplies, materials, and services for their own operations unrelated to
           oversight activities.

Further, the counties augmented their operating budgets by retaining interest that was earned
on the oversight funds. The Office of Civilian Radioactive Waste Management (OCRWM),
which was responsible for the program administration, had not monitored the expenditures as
required. Specifically, OCRWM had not ensured that county program plans were
implemented and had not provided funding to the counties based on allowable expenditures.
We questioned costs totaling $3.3 million of the $7.2 million spent by the three counties over
the two-year period. Overall, the audit findings suggest that this program is not fully
achieving its intended results of assisting local governments in providing oversight of the
Yucca Mountain Project.

The conclusions reached in the current review are consistent with our earlier Audit of the
State of Nevada Yucca Mountain Oversight Funds for Fiscal Year 2001 (CR-C-02-0 1,
August 2002). The prior audit determined that the State of Nevada used oversight funds
contrary to the Nuclear Waste Policy Act. Specifically, the State of Nevada paid for
lobbying and coalition building activities.

MANAGEMENT REACTION

Management generally agreed with the recommendations and proposed corrective actions.
Management expressed concern, however, that details to clarify the findings in two sections
of the report were not present. We have incorporated additional details into those sections
and have held discussions with management to convey specifics not included in the report.
Management's comments are included in their entirety in Appendix 1.

Attachment

cc:       Deputy Secretary
          Under Secretary for Energy, Science and Environment
          Director, Office of Civilian Radioactive Waste Management
          Deputy Director, Office of Repository Development
OVERSIGHT FUNDS PROVIDED TO LOCAL GOVERNMENTS IN THE
STATE OF NEVADA

TABLE OF
CONTENTS



                Use of Oversiqht Funds

                Details of Finding.......................................................................    1

                Recommendations and Comments ..........................................                      5


                Appendices

                1. Management Comments ......................................................                7

                2. Objective. Scope. and Methodology.....................................                    9

                3 . Prior Audit Reports .............................................................       10

                4 . Oversight Funding by County .............................................               11

                5. Clark County Questioned Costs .........................................                  12

                6. Lincoln County Questioned Costs ......................................                   13

                7. Nye County Questioned Costs ...........................................                  14
USE OF OVERSIGHT FUNDS
Prohibited Activities   Clark, Lincoln, and Nye Counties each used oversight funds for
                        prohibited activities, such as lobbying, litigation expenses, and coalition
                        building activities. In addition, we determined that the counties used
                        oversight funds for other activities and augmented their budgets by
                        retaining and using interest earned on oversight funds, rather than
                        returning the interest to the Department. We identified $3.3 million in
                        questionable costs out of the $7.2 million spent by the three counties
                        during the two-year period included in our review.' Schedules of
                        funding for each county and the details of the questioned costs are
                        presented in the attached Appendices.

                                                             Lobbying

                        All three counties spent oversight funds for lobbying expenses. Clark
                        County, for example, contracted with a consulting firm that arranged
                        for a county commissioner to meet with Congressional representatives.
                        The meetings were held in part to: (1) encourage Congress to continue
                        addressing local needs in subsequent legislation; (2) express Clark
                        County's support for increased funding for transmutation technologies;
                        (3) gain support for future legislation regarding transportation concerns;
                        (4)reinforce common concerns of the states; and ( 5 )justify Clark
                        County's opposition to the Yucca Mountain Project. The City of Las
                        Vegas also used oversight funds provided by Clark County to hire
                        attorneys to lobby Congress against nuclear waste legislation.

                        Lincoln County, on the other hand, hired consulting firms to lobby for
                        the county to "mitigate impacts and maximize benefits" of the Yucca
                        Mountain Project. Lincoln County tasked both consulting firms with
                        identifying and capitalizing on opportunities to influence the
                        programmatic outcomes of activities. Furthermore, Lincoln County
                        tasked the consultants to advocate the county's position and provide
                        information and secure necessary commitments from agency decision
                        makers and congressional representatives.

                        Nye County consultants helped develop a Community Protection Plan.
                        Although the Plan was developed as part of its impact assistance
                        request, the Plan was also used to lobby for funding a research and
                        development center, changing a section of the Nuclear Waste Policy
                        Act, and transferring federa1 land for economic development projects.
                        According to Nye County officials, the travel costs associated with
                        distributing the Plan for lobbying purposes were charged to a

                        'We questioned the entire amount of some invoices, as we were unable to separate
                        oversight expenditures from expenditures for unrelated activities. The invoices were
                        too vague to allocate the expenditures correctly.


Page 1                                                                                Details of Finding
         a non-federal fund. However, Nye County used oversight funds to pay
         the associated consulting costs and employee salaries without allocating
         any of these costs to the non-federal fund.

                                         Litigation

         Both Clark and Lincoln Counties spent oversight funds on litigation
         activities. Specifically, Clark County hired a law firm to research the
         legal impacts of transporting high-level waste through Nevada, which is
         an acceptable use of oversight funds. However, the law firm's report
         showed how the county could challenge and attack the sufficiency of an
         Environmental Impact Statement. The law firm also provided Clark
         County with information on how citizens could sue the government for
         inverse condemnation, nuisance, trespass, fear, and/or apprehension in
         regard to waste being transported to Yucca Mountain through Clark
         County. Finally, Clark County, through the City of Las Vegas, joined
         the State of Nevada in the fight against the Yucca Mountain Project by
         attending meetings for the Nevada Protection Fund. The Nevada
         Protection Fund is the state's legal fund used to litigate against the
         Yucca Mountain Project. Although Clark County officials asserted that
         the City of Las Vegas did not use the oversight funding for lobbying or
         litigation activities, they did not provide adequate documentation to
         support their assertions. Finally, a Lincoln County consulting firm
         received reimbursements for research costs associated with lawsuits
         filed against the Yucca Mountain Project.

                                    Coalition Building

         The City of Las Vegas and Clark County used funds to promote and
         participate in coalition building activities. Specifically, the city
         participated in anti-Yucca Mountain Project events and rallies, and
         distributed informational packets to help the fight against transportation
         to the Yucca Mountain Project to monks attending a convention and to
         mayors of cities along proposed transportation routes. In addition,
         Clark County used some of its oversight funds to give a Good Citizen
         Award to a student who obtained petition signatures against the Yucca
         Mountain Project. Clark County also developed a national publicity
         campaign and provided information to national media groups.

                                   Additional Activities

         Clark, Lincoln, and Nye Counties spent oversight funds on additional
         activities that benefited multiple county departments and were unrelated
         to those allowed by the legislation. Specifically, these counties paid

Page 2                                                         Details of Finding
              employees or consultants that worked for other county departments.
              However, time for these individuals was not correctly allocated
              between the oversight funds and other county activities. For example, a
              planning manager for Clark County was responsible for the
              Comprehensive Planning Department's Administrative Support Team
              and Nuclear Waste Division. However, the employee charged 70
              percent of the work time to the Nuclear Waste Division even though the
              organization chart showed that the time would be split evenly. Also,
              Clark County purchased new office furniture for the employee entirely
              with oversight funds instead of allocating the cost.

              We noted additional Clark County purchases using oversight funds that
              were unrelated to oversight activities. These purchases included
              shipping charges to national media organizations and travel, office
              supplies, and shipping charges incurred by employees working for other
              county departments. Nuclear Waste Division employees also used
              oversight funds for travel costs for trips unrelated to nuclear waste
              activities. During our audit we discussed these activities with Clark
              County officials. As a result, they have begun to take corrective action
              on some of the questioned costs.

              Lincoln County hired a consultant to work on computer applications
              related to the oversight activities. However, the consultant's invoices
              showed that work was also performed for the District Attorney's office
              and the Grants Administration office. Further, the consultant billed for
              costs other than those authorized under the contract. Another Lincoln
              County consultant was paid for nuclear waste activities but performed
              work on economic development projects. This consultant also prepared
              a capital improvements plan for the local hospital to assess current
              needs. The plan did not address capital improvements needed in
              relation to Yucca Mountain Project's activities; In addition, Lincoln
              County used oversight funds to hire a consultant to plan the
              development of a block of land for a master planned community. Also,
              Lincoln County transferred $15,000 of oversight funds to the county's
              Regional Development Authority to be spent on procurement outreach
              and industry targeting activities. Further, Lincoln County's program
              plans showed shared work with White Pine County. A memorandum of
              understanding between the two counties showed how the costs would
              be shared. However, Lincoln County paid some of White Pine County's
              costs with oversight funds. AdditionaI Lincoln County purchases made
              with oversight funds included expenditures for computers, scanners,
              and digital cameras used by other county departments; development and
              maintenance of a county government website; and travel costs for
              residents to visit nuclear power plants and energy museums outside of
              Nevada.

         IL

Page 3                                                            Details of Finding
                       Nye County also used oversight funds inappropriately. Nye County's
                       Nuclear Waste Repository Project Office managed the oversight funds
                       and two scientific grants awarded by the Department, as well as an
                       economic development grant awarded by the Department of Commerce.
                       Employees in the office charged their time and associated overhead
                       costs to the oversight fund even though employees worked on the
                       scientific and economic development grants. Nye County also used
                       oversight funds for consultants to prepare, manage, and implement the
                       economic development grant.

                                        Interest Earned on Unexpended Funds

                       Finally, Clark, Lincoln, and Nye Counties augmented their budgets by
                       retaining interest earned on oversight funds. The accounting policies
                       for the Nuclear Waste Fund require interest earned to be reinvested in
                       the Nuclear Waste Fund. Clark County has accumulated nearly $1.6
                       million in interest earned as of August 2002. This amount includes
                       $133,000 of interest earned prior to June 1992, $825,000 of interest
                       earned from July 1992 to June 2000 and another $624,000 of interest
                       earned from July 2000 to August 2002. Clark County also had $3
                       million in unexpended funds from Fiscal Years 2001 and 2002 for a
                       total cash balance of $4.6 million. Lincoln County had unexpended
                       funds of $370,000, which included $35,000 of interest earned in the last
                       two years. Nye County had accumulated $1.5 million in unexpended
                       funds that included $141,700 in interest earned. Lincoln County
                       included interest earned with available funding to use for oversight
                       expenditures.

Monitoring Oversight   The Department's Office of Civilian Radioactive Waste Management
Funds                  (OCRWM) had not sufficiently monitored the use of oversight funds
                       received by the counties. Specifically, OCRWM was not ensuring that
                       county program plans were completed before providing the funds and
                       was not providing the funds based on expenditures. OCRWM also had
                       not resolved findings identified in independent audit reports.

                       OCRWM received and approved annual county program plans;
                       however, OCRWM did not assure that the counties completed the
                       planned activities and did not require the counties to account for the
                       funding received. Further, one county received comments on its
                       program plan 25 days after the end of the applicable fiscal year. While
                       OCRWM received annual certifications from the counties stating that
                       the funds were properly used, the certifications did not show the dollar
                       amounts of funds used during the year. Further, OCRWM did not
                       review the expenditures made by the counties. We also found that

Page 4                                                                      Details of Finding
                   OCRWM provided the funds in a lump sum rather than funding the
                   counties for actual expenditures. Finally, OCRWM did not resolve
                   findings in the independent annual audit reports. For example, in Nye
                   County's FY 2001 independent audit report, the auditor identified
                   oversight funds used to implement and administer an economic
                   development grant. The report questioned the costs since they were not
                   part of determining potential economic impacts from the Yucca
                   Mountain Project. As of December 2002, OCRWM had not reviewed
                   the report, and Nye County had not discussed the report findings with
                   OCRWM.

                   Concerns over monitoring this activity were reported by the General
                   Accounting Office (GAO) as long ago as 1990. In fact, GAO has
                   issued two reports, one in 1990 and one in 1996, which noted that
                   OCRWMs administration of oversight funds to the State of Nevada
                   was minimal. Additionally, GAO reported that OCRWM distributed
                   oversight funds prior to approving the state's program plan and without
                   recovering previously identified questioned costs.

Intended Results   As a result, we are questioning $3.3 million of the expenditures made
                   by the three counties during the two-year period included in our review.
                   Further, the impact of these activities suggests that this program is not
                   fully achieving its intended results of assisting local governments to
                   exercise oversight of the Yucca Mountain Project. Finally, by not
                   disbursing funds based on actual expenditures, OCRWM is not
                   fulfilling its fiscal responsibilities over the Nuclear Waste Fund.


RECOMMENDATONS     We recommend that the Director, Office of Civilian Radioactive Waste
                   Management:

                       1. Recover: (a) funds spent on unallowable activities, (b) interest
                          earned, and (c) unexpended funds;

                      2. Distribute future funds to the affected units of governments
                         based on expenditures;

                      3. Monitor county expenditures against approved program plans to
                         assure that funds are being spent on permissible activities;

                      4. Require the annual certifications to include the actual amount of
                         funds expended; and,

                      5. Resolve findings related to oversight funding identified in
                          independent annual audits.

Page 5                                                                 Recommendations
MANAGEMENT         Overall, OCRWM concurred with the findings and recommendations.
REACT10N           However, OCRWM did not believe it was in a position to concur on
                   recovery of interest and unexpended funds. Accordingly, OCRWM has
                   asked for a legal opinion from the Office of General Counsel on these
                   issues. Comments provided by the Director, OCRWM, are included as
                   Appendix 1.


AUDITOR COMMENTS   With one exception, OCRWM's comments were responsive and the
                   planned corrective actions will address the issues. Although OCRWM
                   concurred with Recommendation 2, the planned corrective action will
                   not correct the deficiency. Specifically, OCRWM currently distributes
                   funds based on the proposed annual program plans. The proposed
                   corrective action essentially will be to continue distributing funds as
                   was done in the past. We believe that there are various funding
                   mechanisms available to advance funds to the counties in a manner that
                   would more closely provide funding based on expenditures. The Chief
                   Financial Officer could assist OCRWM in establishing a funding
                   mechanism which assures that federal funds are not distributed until
                   needed by the counties.

                   In response to OCRWMs comment that certain sections of the report
                   contain more details, we included additional examples of lobbying and
                   litigation to illustrate the types of activities conducted by the counties.
                   In addition, we provided OCRWM with supporting documentation.




Page 6                                                Recommendations and Comments
Appendix 1


                                         Department of Energy
                                             Washington, DC 20585                                 QA: N I A


                                                    May 1 , 2003



         MEMORANDUM FOR Frederick D. Doggett (IG-32)
                        Dcputy Assistant Inspector General for Audit Services
                                                                           -c-.---_______

         FROM:


         S VBJECT:                Comments on Inspector Gcneral Draft Audit Report on Ovcrsight
                                  Funds Provided to Local Governments


         The Office of Civilian Radioactive Waste blanagement (OCRWM) has reviewed the subject draft
         Inspector Gencral Audit Report and offers the following comments:

         First, we offer a general comment to ensure a common understanding o f how OCRWM reached
         this point in our oversight interactions with the state and affected units of local government
         (AULG).In the fiscal year (FY) 1992 Energy and Water Development Appropriation Act,
         Congress directed that funds for the state and AULG be provided as direct payments instead of
         grants. This was done to improve the contentious relationship between the state of Nevada and
         the US. Depailment of Energy (DOE) and to reduce the administrative burden on both DOE and
         the recipients of the funding. The change to direct payments was accompanied by a new
         requirement for the recipients to provide an annual certification. OCRWM understood from these
         changes that its supervision of the recipients’ use of these funds was to be limited, and so
         distanced itself from overseeing the state and AULG oversight programs. Since then, our
         approach has been criticized as being too removed from our stewardship obligations. Consistent
         with our understanding of Congressional intent, as expressed in the annual appropriations, and
         with audit recommendations, we increased our oversight of the process to include the review of
         program plans, annual certifications, and audits.

         It is clear from the findings of this report that our Office needs to develop implementing guidance
         for Section 116 of the Nuclear Waste Policy Act to aid both the Department and local
         governments in establishing expectations and identifying appropriate activities. I have asked our
         Office of Repository Development to immediatcly begin working with the local governments in
         developing those guidelines.

         Recommendation 1 . Recover: (a) funds spent on unallowable activities, (b) interest earned, and
         (c) unexpended funds.

         OCRWM concurs in Recommendation l(a). However, we believe that it would benefit the DOE
         and rhe counties if the final Audit Report contained more details to clarify the findings in the
         Lobbying and Litigation sections of the report. In addressing this recommendation, we will
         obtain additional information from the auditors that we will use to discuss the findings with the
         counties and to assist the Contracting Officer in reaching a final determination regarding the




Page 7                                                                                   Management Comments
Appendix I(continued)



         amount of unauthorized expenditures. The unauthorized expenditures will bc recovered, 0 1 that
         amount will be withheld from future direct paymenu.

         As to Recommendations 1 (bj and I (c), we are not in a position to concur at this time. We have
         asked the Office of General Counsel for a legal opinion on the interest and unexpended funds
         issues. We will review that opinion and our approach to considering unexpended funds as part o f
         the process for distributing annual direct payments. Based on our review and the resuiting policy
         decisions, we will advise the state and AULG of any changes and will implement these changes
         as part of t h e FY 2004 payment process.

         Recommendation 2. Distribute future funds to the affected units of government based on
         expenditures.

         OCRWM concurs that we should distribute funds on the basis of thc expenditures proposed in the
         annual program plans. However, our understanding of Congressional intent in appropriating
         nuclear waste funds for the state and AULG to use for particular purposes was to ensure that they
         did not have to commit their own monies to these activities. We will evaluate options for
         improving the disbursement of the payments as part of our considerations in response to
         Recommendation 1.

         Recommendation 3. Monitor county expenditures against approved program plans to assure that
         funds arc being spent on permissible activities.

         OCRWM concurs that we should improve our monitoring process and have recently established a
         more disciplined process. This includes issuing updated guidance for appropriate expenditure of
         funds, reviewing and approving program plans before funds are issued. requiring certification of
         the amount expended, and annual audits. Any policy changes we make in response to the other
         recommendations will be incorporated into this process.

         Recommendation 4. Require the annual certifications to include the actual amount of funds
         expended.

         Concur. The FY 2003 certificates, sent to the state and ALEG at the time direct payments are
         issued, alrcady require such information.

         Recommendation 5 . Resolve findings related to oversight funding identified in independent
         annual audits.

         Concur. We will review independent audit reports and work with the affected state and AULG to
         resolve audit findings, beginning immediately. Amounts that the Contracting Officer determines
         have been spent in an unauthorized manner w i l l be recovered or withheld from future payments.

         Wc appreciate the opportunity to review your draft report and hope that these comments will be
         helpful to you in the preparation of the final report.

         ODD:SLR-1103




Page 8                                                                                 Management Comments
Appendix 2
OBJECTIVE     Our objective was to determine if local governments used the oversight
              funds according to the terms of the Nuclear Waste Policy Act and
              annual appropriations language.


SCOPE         The audit was performed between August 2002 and February 2003 at
              the OCRWMs Office of Repository Development, in Las Vegas,
              Nevada; Clark County government offices in Las Vegas, Nevada;
              Lincoln County government offices in Pioche and Caliente, Nevada;
              and Nye County government offices in Pahrump, Nevada. The scope
              was limited to Clark, Lincoln, and Nye Counties' Fiscal Years 2001
              and 2002. The counties' fiscal years were from July 1,2000, to June
              30,2002. These three counties received $8.5 million of the $12
              million appropriated for affected units of local governments.


METHODOLOGY   To accomplish the audit objective, we:

                   0   Evaluated Federal and Department guidance concerning the
                       use of Nuclear Waste Funds for oversight responsibilities;

                   0   Reviewed county files and documentation supporting Nuclear
                       Waste expenditures;

                       Analyzed annual County Program Plans; and,

                       Held discussions with cognizant Department and county
                       personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              the audit included a review of the local government's use of oversight
              funding. Because our audit was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. As part of our review, we also evaluated the
              Department's implementation of the Government Performance and
              Results Act of 1993. We found that OCRWM had no specific or
              measurable performance measures related to the local governments'
              use of oversight funds. We conducted a limited assessment of
              computer-processed data when we traced county expenditures charged
              against the oversight funds to supporting invoices. We found the data
              to be sufficiently reliable.

              We discussed the results of the audit with officials from OCRWM on
              April 18,2003.
Page 9                                         Objective, Scope, and Methodology
Appendix 3

                                      PRIOR AUDIT REPORTS


   Office of Inspector General

          Audit of the State of Nevada Yucca Mountain Oversight Funds for Fiscal Year 2001, (DOE/
          IG-CR-C-02-01, August 2002). The audit identified the State of Nevada used oversight
          funds contrary to the Nuclear Waste Policy Act. Specifically, the State of Nevada paid for
          lobbying and coalition building activities. Additionally, the State of Nevada paid for the
          salary of a consultant that performed the same duties as a state employee. Finally,
          legislation directs a specific state agency to use the oversight funds. The named agency did
          not use the oversight funds. As a result, the report recommended the recovery of $25,753 in
          questioned costs; future certifications of the amount of expenditures used each year; and
          proper use of funds by the agency identified in the legislation.

   General Accountinp Office

          Nuclear Waste, DOE Needs to Ensure Nevada's Conformance with Grant Requirements
          (GAORCED-90-173, July 1990). The GAO found that the State of Nevada spent oversight
          funds for activities not authorized according to legislation. Specifically, Nevada spent
          oversight funds on lobbying and litigation activities. The report cites the Department's
          permissive administrative approach as the cause of Nevada's improper use of $1 million in
          oversight funds.

          Nuclear Waste, Nevada's Use of Nuclear Waste Grant Funds (GAO/RCED-96-72, March
          1996). The GAO identified that the state used oversight funds for activities outside the
          scope of the authorized legislation and for activities specifically prohibited. For example,
          the state paid for national outreach activities to further the state's opposition against the
          Yucca Mountain Project. The GAO further identified that the Department had not
          recovered previously identified questioned costs or ensured that internal control weaknesses
          were corrected, prior to approving program plans and releasing additional funding.

   Independent Audits under the Single Audit Act

          Nye County, Nevada - Financial Statements with Accompanying Information Pertaining to
          Federal Awards for Fiscal Year Ended June 30, 2001. The report found that Nye County
          was using oversight funding to implement and administer an economic development grant.




Page 10                                                                              Prior Audit Reports
Appendix 4


                              OVERSIGHT FUNDING BY COUNTY




                                           Clark         Lincoln
FY 2001 Beginning Balance of Interest
Earned and Unexpended Funds                $3,224,776     $ 348,265

Funds Received                              3,120,000     1,398,000

Interest Earned FY 2001 and Ey 2002           624,634        34,763

  Total                                    $6,969,410    $1,781,028

Less Expenditures                          (2,359,6251   [1,411,218)

Remaining Balance of Interest Earned and
Unexpended Funds                           $4,609,785      $369,810

  Amount Questioned                        $ 132,296     $1,132,149




Page 11                                                          Oversight Funding by County
Appendix 5
                               CLARK COUNTY QUESTIONED COSTS
                                                                                      Fiscal Years
                                                                                    2001        2002
Lobbying Activities:
Meeting with public interest groups and legislative representatives in                          $40,873
Washington, D.C.

Shipping charges to national news media                                                              65
  Subtotal                                                                                      $40,938

Litigation Activities:
City of Las Vegas used funds for litigation expenses, coalition building with        $17,00C    $40,000
other cities along transportation routes (costs not separated by category because
the methodology for providing the City with funding does not allow for such
separation)

Law firm hired to research possible litigation against the Department of Energy       io,ooa
Shipping charges to law firm                                                                         14
   Subtotal                                                                          $27,000    $40,014

Coalition Buildinmulti-Effort Activities:
Communications consultant planned bowling night, outdoor concert, citizen                       $16,884
award for collecting petitions against Yucca Mountain Project, informing
residents of Clark County's opposition to Yucca Mountain Project
   Subtotal                                                                                     $16,884

Additional Activities:
Travel charges unrelated to oversight activities                                                 $1,978
No allocation of furniture to Administrative Support Team                                            1,906

Non-Nuclear Waste Division employees received office supplies                                        1,899
Attend National Association of Counties Conference                                                   1,318
Non-Nuclear Waste Division employee shipping charges                                    $24            90

Attend Energy Communities Alliance Meetings                                             235

Unrelated training courses                                                                           10
  Subtotal                                                                             $259      $7,201

Total                                                                               $27,259    $105,037

Page 12                                                                  Clark County Questioned Costs
Appendix 6
                             LINCOLN COUNTY OUESTIONED COSTS
                                                                                          ~~      ~




                                                                                    Fiscal Years
                                                                                   2001         2002
Lobbyinflitigation Activities:
Consultant "A"activities with public interest groups: researched lawsuits and     $301,297     $261,922
participated in economic development activities beyond assessing economic
impacts

Consultant "B" activities with public interest groups: researched lawsuits and      167,547     134,406
participated in economic development activities beyond assessing economic
impacts

   Subtotal                                                                       $468,844     $396,328


Additional Activities:
Consultant developed Land Act-Planned         Unit Development                                  $82,496

Consultant worked for other county departments; county-wide website                $78,665       29,947

Computers, scanners and digital cameras other county departments used                4,40C       28,006

Transfer funds to Regional Development Authority                                                 15,000

White Pine County Costs                                                               1,50C           5,226

Consultant personal costs-phone    calldday planners                                 3,082            4,370

Attend Energy Communities Alliance meetings                                          3,160            3,052

Oral Histories program                                                               1,389            1,450

Development and maintenance of county-wide website                                                     811
Consultant's wages for unrelated activities                                                            587
Purchase Federal Biz Opportunity subscription                                                          299

Travel to Energy MuseumsRrairie Island Power Planwaste Isolation Plant and           2,846             249
national transportation conference

Unsupported costs/duplicate payments                                                   229
  Subtotal                                                                         $95,271     $171,706

                                                                                  $564,115     $568,034

Page 13                                                               Lincoln County Questioned Costs
Appendix 7

                                ATE COUNTY OUESTIONED COSTS

                                                                                       Fiscal Years
                                                                                     2001        2002
Out-of-StateCoalition Building/Multi-Effort Activities:
Meet with Tooele, Utah, officials to exchange specifics on public safety/public         $650
exposure, transportation, and to learn how Tooele officials are dealing with the
state's opposition on the repository project
   Subtotal                                                                             $650

Additional Activities:
Technical assistance including lobbying and activities unrelated to oversight       $547,175    $664,9 15
activities

Employees' salaries working on science and EDA grants                                278,87 8    454,3 17

Overhead costs related to science and EDA grants                                      46,072      49,635

Unrelated Travel Charges (Energy Community Alliance, EDA, nuclear reactors)            8,307      1585 1

Energy Communities Alliance (ECA) membership, registration, attendance, and            5,179       4,423
peer exchange handouts, and attend Resources for the Future meeting

Subscription to Land Letter, News Media Yellow Book, Public Land News, and               585       1,956
Congressional Directory

Advertise outside of Nevada for economic development                                                  995

Training for employees and contractors who work on other grants, and purchase of         628          150
Bureau of Land Management Regulations' Manual

Geological Society of America's membership fee and periodicals                           230          180

Shipping charges and duplicating cost for unrelated activities                           332          123

Telephone charges unrelated to oversight activities                                      114          20
   Subtotal                                                                         $887,500 11,192,565

Total                                                                               $888,150 6 1,192,565




Page 14                                                                   Nye County Questioned Costs
                                                                               IG Report No.: DOE/IG-0600

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG- 1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586- 1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http:llwww .ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
